<html>
<title> - THE H-2B GUESTWORKER PROGRAM AND IMPROVING THE DEPARTMENT OF LABOR'S ENFORCEMENT OF THE RIGHTS OF GUESTWORKERS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
 THE H-2B GUESTWORKER PROGRAM AND IMPROVING THE DEPARTMENT OF LABOR'S 
               ENFORCEMENT OF THE RIGHTS OF GUESTWORKERS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON DOMESTIC POLICY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 23, 2009

                               __________

                            Serial No. 111-8

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov
 THE H-2B GUESTWORKER PROGRAM AND IMPROVING THE DEPARTMENT OF LABOR'S 
               ENFORCEMENT OF THE RIGHTS OF GUESTWORKERS




 THE H-2B GUESTWORKER PROGRAM AND IMPROVING THE DEPARTMENT OF LABOR'S 
               ENFORCEMENT OF THE RIGHTS OF GUESTWORKERS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON DOMESTIC POLICY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 23, 2009

                               __________

                            Serial No. 111-8

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
51-324                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
WM. LACY CLAY, Missouri              TODD RUSSELL PLATTS, Pennsylvania
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                LYNN A. WESTMORELAND, Georgia
GERRY E. CONNOLLY, Virginia          PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   BRIAN P. BILBRAY, California
    Columbia                         JIM JORDAN, Ohio
PATRICK J. KENNEDY, Rhode Island     JEFF FLAKE, Arizona
DANNY K. DAVIS, Illinois             JEFF FORTENBERRY, Nebraska
CHRIS VAN HOLLEN, Maryland           JASON CHAFFETZ, Utah
HENRY CUELLAR, Texas                 AARON SCHOCK, Illinois
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
------ ------
------ ------
------ ------

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

                    Subcommittee on Domestic Policy

                   DENNIS J. KUCINICH, Ohio, Chairman
ELIJAH E. CUMMINGS, Maryland         JIM JORDAN, Ohio
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
DIANE E. WATSON, California          DAN BURTON, Indiana
JIM COOPER, Tennessee                MICHAEL R. TURNER, Ohio
PATRICK J. KENNEDY, Rhode Island     JEFF FORTENBERRY, Nebraska
PETER WELCH, Vermont                 AARON SCHOCK, Illinois
BILL FOSTER, Illinois
                    Jaron R. Bourke, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 23, 2009...................................     1
Statement of:
    Raju, Aby Karickathara, former H-2B guestworker from India 
      for Signal International LLC, member of the Alliance of 
      Guestworkers for Dignity; Miguel Angel Jovel Lopez, former 
      H-2B guestworker from El Salvador for Cumberland 
      Environmental Resources, Co., member of the Alliance of 
      Guestworkers for Dignity; and Daniel Castellanos-Contreras, 
      former H-2B guestworker from Peru for Decatur Hotels LLC, 
      organizer and founding member of the Alliance of 
      Guestworkers for Dignity...................................    20
        Castellanos-Contreras, Daniel............................    30
        Lopez, Miguel Angel Jovel................................    26
        Raju, Aby Karickathara...................................    20
    Soni, Saket, executive director, New Orleans Workers' Center 
      for Racial Justice; Mary Bauer, director, Immigrant Justice 
      Project, Southern Poverty Law Center; Catherine 
      Ruckelshaus, legal co-director, National Employment Law 
      Project; and Professor Patrick A. McLaughlin, Ph.D., 
      Mercatus Center at George Mason University.................    42
        Bauer, Mary..............................................    58
        McLaughlin, Patrick A....................................   366
        Ruckelshaus, Catherine...................................   351
        Soni, Saket..............................................    42
Letters, statements, etc., submitted for the record by:
    Bauer, Mary, director, Immigrant Justice Project, Southern 
      Poverty Law Center, prepared statement of..................    60
    Castellanos-Contreras, Daniel, former H-2B guestworker from 
      Peru for Decatur Hotels LLC, organizer and founding member 
      of the Alliance of Guestworkers for Dignity, prepared 
      statement of...............................................    31
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   381
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     4
    Lopez, Miguel Angel Jovel, former H-2B guestworker from El 
      Salvador for Cumberland Environmental Resources, Co., 
      member of the Alliance of Guestworkers for Dignity, 
      prepared statement of......................................    27
    McLaughlin, Professor Patrick A., Ph.D., Mercatus Center at 
      George Mason University, prepared statement of.............   368
    Raju, Aby Karickathara, former H-2B guestworker from India 
      for Signal International LLC, member of the Alliance of 
      Guestworkers for Dignity, prepared statement of............    22
    Ruckelshaus, Catherine, legal co-director, National 
      Employment Law Project, prepared statement of..............   354
    Soni, Saket, executive director, New Orleans Workers' Center 
      for Racial Justice, prepared statement of..................    45
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................    14


 THE H-2B GUESTWORKER PROGRAM AND IMPROVING THE DEPARTMENT OF LABOR'S 
               ENFORCEMENT OF THE RIGHTS OF GUESTWORKERS

                              ----------                              


                        THURSDAY, APRIL 23, 2009

                  House of Representatives,
                   Subcommittee on Domestic Policy,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:20 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dennis J. 
Kucinich (chairman of the subcommittee) presiding.
    Present: Representatives Kucinich, Jordan, Cummings, 
Tierney, Watson, and Foster.
    Staff present: Jaron R. Bourke, staff director; Claire 
Coleman, counsel; Jean Gosa, clerk; Charisma Williams, staff 
assistant; Leneal Scott, information systems manager; John 
Cuaderes, minority deputy staff director; Jennifer Safavian, 
minority chief counsel for oversight and investigations; Dan 
Blankenburg, minority director of outreach and senior advisor; 
Adam Fromm, minority chief clerk and Member liaison; Seamus 
Kraft, minority deputy press secretary; Christopher Hixon, 
minority senior counsel; and Marvin Kaplan and Mitchell 
Kominsky, minority counsels.
    Mr. Kucinich. The subcommittee will come to order.
    Good morning. Buenos dias. Namaste. I want to thank the 
witnesses for being here. I am Congressman Dennis Kucinich, 
chairman of the Domestic Policy Subcommittee of the Oversight 
and Government Reform Committee. I am here with the ranking 
member of the committee, Mr. Jordan of Ohio.
    The subcommittee's hearing is entitled, ``The H-2B 
Guestworker Program and Improving the Department of Labor's 
Enforcement of the Rights of Guestworkers.''
    We have a panel of witnesses who are prepared to testify. 
Today's hearing is going to go into issues of enforcement, 
particularly with respect to labor rights for non-agricultural 
guestworkers who come to the United States lawfully through the 
H-2B visa program.
    Now, without objection, the Chair and ranking minority 
member will have 5 minutes to make opening statements, followed 
by opening statements not to exceed 3 minutes by any other 
Member who seeks recognition. Without objection, Members and 
witnesses may have 5 legislative days to submit a written 
statement or extraneous materials for the record.
    This hearing, ``The H-2B Guestworker Program and Improving 
the Department of Labor's Enforcement of the Rights of 
Guestworkers,'' continues an investigation that this 
subcommittee began in 2007, evaluating the adequacy of labor 
law enforcement in New Orleans during period following 
Hurricane Katrina.
    During the course of our investigation and the two hearings 
we held on labor law enforcement in New Orleans, the 
subcommittee discovered that H-2B visa holders, who are non-
agricultural guestworkers, have been exposed to egregious forms 
of abuse by sponsoring employers who brought them to the Gulf 
Coast to assist with the cleanup. These abuses include wage 
theft, poor living conditions, and threatening actions which 
amounted to human trafficking.
    Unfortunately, it is clear that the abuse of guestworkers 
continues today in New Orleans and across the country. Today we 
will hear testimony from three guestworkers, all of whom worked 
in different industries that the Department of Labor allows to 
hire foreign guestworkers. Take, for example, the case of one 
of our witnesses, Aby Karickathara Raju, who came to the United 
States from India to work for Signal International LLC at the 
Gulf Coast Shipyard. Lured by false promises of permanent U.S. 
residency, Mr. Raju, along with hundreds of other Indian 
guestworkers, paid tens of thousands of dollars to obtain this 
job with Signal, only to have their passports confiscated and 
find themselves forced into involuntary servitude, working for 
substandard wages and living in overcrowded, guarded labor 
camps.
    Unfortunately, these cases of worker abuse have gone 
largely unprosecuted by the Federal cop on the workplace beat. 
The Department of Labor did virtually nothing to protect these 
workers. The explanation has two components: First, there are 
very limited legal protections in place for H-2B workers. 
Unlike H-2A guestworkers, H-2B guestworkers do not have access 
to legal services, do not have protection from retaliation or 
payment of transportation to the United States.
    Second, the Department of Labor has utterly failed to 
enforce the rights of H-2B guestworkers. The Department of 
Labor has interpreted the Immigration and Nationality Act and 
its implementing regulations to preclude Department of Labor 
authority to enforce the conditions of H-2B visa petitions in 
favor of Homeland Security's enforcement authority.
    At our hearing in June 2007, when we questioned former 
Department of Labor officials about why the abuse of 
guestworkers in New Orleans had gone unchecked, we were told to 
ask the Department of Homeland Security. While that is 
debatable, Department of Labor itself has acknowledged it still 
maintains authority to oversee wage and hour laws which apply 
to guestworkers. Based on this subcommittee's scrutiny, 
advocacy by labor groups, as well as recent reports by the GAO, 
however, it is clear that the Department of Labor's Wage and 
Hour Division has failed to do even that.
    There is a development in the law that requires mentioning 
as well. The previous administration passed a midnight 
regulation that weakens, instead of strengthens, protections 
for H-2B visa guestworkers. The new regulation is also 
extremely harmful to U.S. workers because it makes it easier 
for employers to bring in guestworkers for longer periods of 
time, increasing the risk that U.S. workers will be overlooked 
for a cheaper, less regulated labor source.
    Congressman Miller, chairman of the Committee on Education 
and Labor, and Congresswoman Zoe Lofgren, chairman of the 
Immigration Subcommittee of Judiciary, have been working 
tirelessly on and will soon be introducing a new bill that will 
increase protection for H-2B guestworkers and U.S. workers. 
This subcommittee supports and applauds those efforts. The 
current weak regulatory framework for the H-2B visa program 
cannot be allowed to stand.
    The one silver lining in the previous administration's 
midnight regulation is the delegation of authority by DHS to 
the Department of Labor to establish an enforcement procedure 
to investigate compliance with H-2B requirements and to remedy 
violations uncovered as a result by imposing fines or 
debarment. Many questions remain about the nature of that 
delegation and how DOL's oversight and enforcement of the H-2B 
visa will be carried out. But the acknowledgment by both 
Homeland Security and Labor that Labor has clear authority to 
enforce the rights of H-2B guestworkers give this subcommittee 
hope that the Department of Labor will finally commit to 
investigating and prosecuting H-2B sponsoring employers who are 
abusing the program and exploiting workers.
    We had hoped to hear from Labor Secretary Hilda Solis today 
on the Department of Labor's plans to improve such oversight, 
but we understand that the Department is still in the policy 
development stage, and the Department asked that it be allowed 
to testify at a later date once the Senate has confirmed the 
Assistant Secretary for the Employment Standards Administration 
and an Administrator of the Wage and Hour Division. We are 
hopeful that the Department will consider the testimony 
presented in today's hearing as they draw conclusions about 
what needs to be done with the H-2B visa program. This 
subcommittee certainly intends to see that Secretary Solis's 
introductory remarks to the Department of Labor, that ``there's 
a new sheriff in town,'' will benefit the lives and working 
conditions of guestworkers.
    Today, I hope we can better understand the problems faced 
by guestworkers and how the Department of Labor, in the past, 
has failed them. We are lucky to have a very strong panel of 
labor advocates that can shed light on how to create a stronger 
Department of Labor that can fulfill its mission of protecting 
the rights of all workers.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T1324.001

[GRAPHIC] [TIFF OMITTED] T1324.002

[GRAPHIC] [TIFF OMITTED] T1324.003

[GRAPHIC] [TIFF OMITTED] T1324.004

[GRAPHIC] [TIFF OMITTED] T1324.005

[GRAPHIC] [TIFF OMITTED] T1324.006

    Mr. Kucinich. I want to thank you again for being here. 
Thank my colleagues who are present, and now turn to the 
ranking member of this subcommittee, Mr. Jordan of Ohio.
    You may proceed.
    Mr. Jordan. Thank you, Mr. Chairman. I want to thank you 
for putting this hearing together and for the great working 
relationship I have with you, a fellow Ohioan.
    I thank our panel, our first panel and our second panel as 
well.
    This hearing provides an excellent opportunity to discuss 
and debate the existing H-2B guestworker program and the newly 
delegated enforcement of H-2B violations to the Department of 
Labor. This is an important matter and I look forward to having 
a productive discussion on the many issues surrounding the 
present H-2B visa program and their economic implications.
    We all agree that enforcement of the law and protection of 
guestworkers is critical. Many organizations and individuals, 
including some that we will hear from later, have advocated for 
substantial reforms to the H-2B guestworker program. Indeed, 
some of these proposed reforms might be helpful.
    But let's also keep in mind today that implementing many of 
the suggested policy changes may require Congress to entirely 
overhaul the guestworker program. As a result, our discussion 
needs to also examine how reforming the current program will 
affect the economy and U.S. workers. Being a Representative 
from Ohio, a State struggling with economic hardship in the 
housing crisis, this is an issue that hits close to home.
    In 1986, Congress passed the Immigration Reform and Control 
Act. The act contained major revisions of the temporary worker 
H-2 program. Specifically, it divided the H-2 program into two 
separate visa categories, the H-2A program for temporary 
agriculture workers and the new H-2B was created for temporary 
non-agricultural workers. Today's hearing will focus on the 
existing H-2B program.
    On January 18, 2009, the Department of Homeland Security 
delegated its enforcement authority of H-2B violations to the 
Labor Department. I would like to emphasize that prior to this 
delegation H-2B violations went largely unenforced by DHS. 
Without a doubt, the failure to enforce existing laws is 
unacceptable.
    Prior to January 18, 2009, Labor's enforcement of H-2B 
wages was limited to laws specifically delegated to the 
Department of Labor, such as the Fair Labor Standards Act. 
However, following the delegation of enforcement by DHS, the 
Department of Labor immediately promulgated regulations that 
would enforce the H-2B program.
    As it now stands, an H-2B employer will have to make 
certain guarantees to the Department of Labor regarding their 
hiring of H-2B workers. Most relevant to today's hearing, it is 
important for this subcommittee to take into consideration that 
an H-2B employer must attest and demonstrate that qualified 
persons in the United States are not available and that the 
terms of employment will not adversely affect the wages and 
working conditions of the workers in the United States 
similarly employed. These employer attestation requirements for 
the H-2B application provide a foundation to prevent employer 
violations, while at the same time encouraging employers to use 
U.S. workers.
    Now that the DHS has delegated to Department of Labor 
enforcement authority for the H-2B violations, the Department 
of Labor has supplemented U.S. worker protection with new 
mechanisms to ensure compliance with H-2B filing and added 
attestation requirements, including penalties, debarment, 
supervised prefiling recruitment, and post-adjudication audits. 
In short, the Department of Labor now has the authority and 
capability to enforce the H-2B violations.
    Unfortunately, the change in administration and the slow 
appointment process has left the Department of Labor with a 
limited management staff, and no one who is capable of 
testifying on the implementation of the H-2B program is present 
today. No accurate assessment of the H-2B regulations can be 
made without a representative from the Department of Labor.
    But it appears that the Department of Labor has failed to 
implement any of the new H-2B regulations laid out above. I 
hope to eventually hear, as the chairman indicated in his 
opening statement, the administration's perspective on the H-2B 
program before this subcommittee. In fact, I think the words 
the chairman used were the Department of Labor has utterly 
failed in many of the things we are talking about today.
    The Department of Labor should be given a chance to enforce 
the regulations promulgated on January 18, 2009. To be sure, 
once the existing regulations are enforced, Congress and the 
Department of Labor will be in a better position to assess the 
H-2B visa program. However, before Congress and the Department 
of Labor can seriously consider future changes to the H-2B 
program, the broader economic implications of the guestworker 
program must be thoroughly examined and discussed.
    Thank you, Mr. Chairman, for holding this important hearing 
today. These issues not only affect our home State of Ohio, but 
also the entire United States, and I look forward to hearing 
from our witnesses.
    Mr. Kucinich. I thank the gentleman. I just want to say 
that I appreciate the chance to work with you. And the one good 
thing about this Domestic Policy Subcommittee, as with all 
subcommittees of Government Oversight, is that--and this 
doesn't relate specifically to the Department of Labor, but to 
any Government agency or department--that we generally get 
their cooperation, and that is nice. That has nothing to do 
with the fact that we have subpoena power, by the way.
    Mr. Foster, the Chair recognizes you for 3 minutes.
    Mr. Foster. Thank you, Mr. Chairman.
    While today's hearing will no doubt have wider implications 
on labor policy and the economy, this is also an opportunity to 
further understand and address the administrative shortcomings 
within the Labor Department in this area. In a previous 
hearing, this subcommittee has investigated labor law 
enforcement and protection of guestworkers by the Department of 
Labor in the aftermath of Hurricanes Katrina and Rita, and has 
uncovered cases of abuse by sponsoring employers during the 
Gulf Coast cleanup.
    Today, however, we may gain a clearer view of nationwide 
patterns of abuse and fraud within our guestworker programs and 
begin to devise rigorous reporting and accountability measures 
to ensure the Department of Labor acts swiftly to uncover abuse 
and enforce existing labor laws.
    In a recent report, the GAO noted that the Labor 
Department's Wage and Hour Division, the body charged with 
administering laws like the Fair Labor Standards Act and the 
Migrant and Seasonal Agricultural Worker Protection Act, 
insufficiently responds to reports of abuse and fails to 
consistently enforce the terms of guestworker labor 
certifications which designate wages and work schedules.
    Many of today's witnesses will correctly point out the 
vulnerability of guestworkers who have no leverage to bargain 
for higher wages or better working conditions. The downward 
pressure on wages that results from this lack of enforcement is 
not only exploitative for the guestworker, but also means that 
jobs become increasingly undesirable for U.S. workers.
    I look forward to hearing from each of our witnesses on the 
ways the bureaucracy can be made more responsive and 
accountable, including any proposals for publicizing patterns 
of abuse and fraud.
    Thank you and I yield back.
    Mr. Kucinich. Thank you very much, Mr. Foster.
    Does Mr. Tierney have an opening statement?
    Mr. Tierney. No, I don't, Mr. Chairman, other than thank 
you for having this hearing. As always, you are looking out for 
people's rights, and we appreciate that.
    Mr. Kucinich. Thank you for being on this subcommittee.
    Ms. Watson, do you have an opening statement?
    Ms. Watson. I do.
    Mr. Kucinich. The Chair recognizes the distinguished lady 
from California, Ambassador Watson.
    Ms. Watson. I also want to thank the chairman for holding 
today's important hearing examining the state of H-2B non-
agricultural guestworker visa program. I sincerely hope that 
today's proceedings will reveal the weaknesses associated with 
the program and the steps that can be taken to strengthen the 
rights and protections for H-2B visa holders.
    Previous hearings and investigations conducted by this 
subcommittee revealed serious abuse by sponsoring employers in 
the Gulf Coast during the cleanup after Hurricane Katrina. 
Unfortunately, these practices were not isolated incidents, but 
representative of similar abuses which occur across the country 
due to the uneven power dynamic between guestworkers and their 
employers and an ineffective system within the Department of 
Labor to regulate employers who violate labor laws.
    Due to the loophole in H-2B regulations and the assertion 
that enforcement of labor laws affecting these guestworkers was 
outside the authority of the Department of Labor, this program 
has operated with essentially no enforcement mechanism or 
penalties for employers who violate their guestworkers' rights.
    A new Department of Labor regulation on December 19, 2008 
solidified the notion that enforcement authority was within the 
jurisdiction of the Department of Labor. But while this was a 
positive step, its practical application has proven to be 
unevenly flawed. According to a March 2009 report by the GAO, 
the Department of Labor's Wage and Hour Division processes for 
complaint intake, conciliation, and investigation are so 
ineffectual they actually discourage workers from making 
complaints.
    Healthy immigration and labor policy needs to be based upon 
the premise of fair wages for honest work in a safe 
environment. Employers who rely upon temporary foreign workers 
must operate under this principle with the knowledge if they 
are in violation, they will be investigated and penalized by 
the Department of Labor.
    With the advent of a new administration and a new Secretary 
of Labor, this hearing occurs at an opportune moment to assess 
current practices and to reveal the actions needed to protect 
the rights of all guestworkers.
    I would like to thank all of today's panelists for 
participating. Sharing your experiences will help us ensure 
future guestworkers in the H-2B visa program are empowered with 
the proper rights and the necessary infrastructure to protect 
you.
    With that, Mr. Chairman, I yield back the remainder of my 
time, and, again, thank you.
    [The prepared statement of Hon. Diane E. Watson follows:]

    [GRAPHIC] [TIFF OMITTED] T1324.007
    
    [GRAPHIC] [TIFF OMITTED] T1324.008
    
    [GRAPHIC] [TIFF OMITTED] T1324.009
    
    [GRAPHIC] [TIFF OMITTED] T1324.010
    
    [GRAPHIC] [TIFF OMITTED] T1324.011
    
    Mr. Kucinich. I thank the gentlelady.
    If there are no additional opening statements from members 
of the subcommittee, the subcommittee will now receive 
testimony from the witnesses.
    I want to start by introducing our first panel. Mr. Aby 
Karickathara Raju is a former H-2B guestworker for Signal 
International LLC. Mr. Raju is a structural welder from Kerala, 
India. He is a member of the Alliance of Guestworkers for 
Dignity.
    Mr. Miguel Angel Jovel Lopez is a former H-2B guestworker 
for Cumberland Environmental Resources. He came to the United 
States from El Salvador and works as a construction laborer. He 
is also a member of the Alliance of Guestworkers for Dignity.
    Mr. Daniel Castellanos-Contreras is a former H-2B 
guestworker for Decatur Hotels LLC. He came to the United 
States from Peru, where he is a licensed engineer and formerly 
owned a small business. He is an organizer and founding member 
of the Alliance of Guestworkers for Dignity.
    I want to thank you for appearing before this subcommittee 
today.
    Now, we also have two interpreters, and I would like the 
interpreters, if you would please identify yourself, your name, 
where you are from, and if the court stenographer can also take 
that information and members of the committee can be aware of 
it.
    If you would start with Mr. Raju's interpreter, your name.
    Ms. Jacob. My name is Bincy Jacob. I work with the New 
Orleans Workers' for Racial Justice.
    Mr. Kucinich. And would you spell your last name?
    Ms. Jacob. Sure. It is J-A-C-O-B.
    Mr. Kucinich. OK. Yes, sir.
    Mr. Horwitz. My name is Jacob Horwitz. I am also with the 
New Orleans Workers' for Racial Justice. And that is H-O-R-W-I-
T-Z. Thanks for having us.
    Mr. Kucinich. OK.
    Now, it is the policy of this subcommittee to swear in all 
witnesses before they testify. Since we have individuals who 
are interpreting, we are going to ask that you be sworn as 
well. So I would ask that all witnesses please rise and please 
raise your right hands.
    [Witnesses sworn.]
    Mr. Kucinich. OK, let the record reflect that each witness 
answered in the affirmative.
    I would ask the witnesses now to give a brief summary of 
their testimony and to try to keep their summary under 5 
minutes in duration. Since we are working with interpreters, we 
may have to give a little bit of play to that, but I want you 
to keep in mind that your written statement will be included in 
the hearing record.
    Thank you. Do you have any questions about that, by the 
way? Do you have any questions about this procedure?
    Ms. Jacob. No.
    Mr. Kucinich. No? OK. All set? OK, let's proceed, then, 
with Mr. Raju.

 STATEMENTS OF ABY KARICKATHARA RAJU, FORMER H-2B GUESTWORKER 
FROM INDIA FOR SIGNAL INTERNATIONAL LLC, MEMBER OF THE ALLIANCE 
 OF GUESTWORKERS FOR DIGNITY; MIGUEL ANGEL JOVEL LOPEZ, FORMER 
H-2B GUESTWORKER FROM EL SALVADOR FOR CUMBERLAND ENVIRONMENTAL 
  RESOURCES, CO., MEMBER OF THE ALLIANCE OF GUESTWORKERS FOR 
    DIGNITY; AND DANIEL CASTELLANOS-CONTRERAS, FORMER H-2B 
  GUESTWORKER FROM PERU FOR DECATUR HOTELS LLC, ORGANIZER AND 
  FOUNDING MEMBER OF THE ALLIANCE OF GUESTWORKERS FOR DIGNITY

               STATEMENT OF ABY KARICKATHARA RAJU

    [The following testimony was delivered through an 
interpreter.]
    Mr. Raju. Thank you.
    Mr. Kucinich. And please speak into the mic as best you 
can, and the interpreter can go back and forth. Go ahead.
    Mr. Raju. My name is Aby Karickathara Raju.
    Mr. Kucinich. We are going to have to ask you to bring that 
mic a little bit closer to both of you and kind of move it back 
and forth. Go ahead.
    Mr. Raju. I came to this country as a guestworker on an H-
2B visa from India. I am here to share with you the experiences 
of what I saw and I heard and I felt in my life as a 
guestworker in this country.
    In 2008, as a result of the company and the recruiter's 
labor trafficking, over 200 of us escaped the labor camps and 
found refuge. Signal and the recruiters lied to us and gave us 
false promises of H-2B visas with permanent resident visas, and 
collected up to $20,000 from each of us. Not only that, when we 
came here, we had to live in very poor conditions and work 
under very poor conditions. And for those of us who spoke up 
against it, they tried to forcibly deport and threaten then. 
They used the security guards to hold back the pastor who came 
to help us to have a prayer meeting. These are the reasons why 
we had to raise our voice and file a lawsuit.
    Unfortunately, we have yet to receive justice from any 
government agency. Advocates told us that there are laws in 
this country to protect workers like us, but we have not 
received any justice. We really believe that you in Congress 
created these laws to protect us, but the truth is we haven't 
received any of the benefits of these laws.
    Since coming to this country, I had never heard of the 
Department of Labor. Not a single person from this Department 
came to where we lived or to our work site and conducted an 
inspection.
    When we complained about the poor conditions in the camp, 
the company told us this camp is under U.S. laws. When the 
company used armed guards to lock up workers and tried to 
forcibly deport them, the company told us that we are doing 
this because Immigration told us. When we filed a lawsuit, 
instead of the Department of Justice working with the 
Department of Labor to help, Department of Justice worked with 
Immigration, and after that we had surveillance over us; and we 
are still awaiting the decision of foreign agency.
    If a foreign worker comes to this country, the Department 
of Labor should directly go and do an inspection. Before the 
work even starts, they have to ensure that the living 
conditions and working conditions are good enough for them to 
stay there. When a worker comes forward and makes a complaint 
about what they experienced, the Department of Labor should 
work with other agencies to see what the investigation should 
be and to move forward correctly. Not only that, for workers 
who come forward, the Department of Labor can support them in 
finding another employer so that they can be safe in this 
country. I truly believe that it is only with these steps that 
the Department of Labor can help stop trafficking in this 
country.
    Thank you.
    [The prepared statement of Mr. Raju follows:]

    [GRAPHIC] [TIFF OMITTED] T1324.012
    
    [GRAPHIC] [TIFF OMITTED] T1324.013
    
    [GRAPHIC] [TIFF OMITTED] T1324.014
    
    [GRAPHIC] [TIFF OMITTED] T1324.015
    
    Mr. Kucinich. Mr. Lopez, you may proceed.

             STATEMENT OF MIGUEL ANGEL JOVEL LOPEZ

    [The following testimony was delivered through an 
interpreter.]
    Mr. Lopez. My name is Miguel Angel. I am from El Salvador 
and I have come here to share and expose my testimony, what I 
have been living and experiencing in the United States.
    In order for me to come to this country from El Salvador on 
an H-2B visa, I had to indebt myself and my family $4,000, and 
I still haven't gotten out of this debt. I am the head of my 
household. I have a young daughter, a wife, and four younger 
brothers that depend on me, and since I have come here I 
haven't satisfied even one of my hopes of coming to the United 
States.
    I was promised many things in my home country, but, when I 
arrived, I realized that they were completely false. Instead of 
working in demolition, which is what I was promised, I was put 
to work doing asbestos cleanup. The company that I was brought 
to work for rented us out to other contractors, including on 
government work sites, military bases, hospitals, and 
universities, and they paid us a small percentage of what the 
work was really worth.
    Seeing all these problems, my coworkers and I began to 
organize. We went on strike and were fired, and then we put a 
complaint in with the Department of Labor in February. We only 
wanted to have a meeting with our boss to talk about the 
requirements of the contract, but our boss never accepted that 
meeting with us. So it has been 2 months since we reported this 
abuse to the Department of Labor, and still we have heard no 
response at all, and we want the Department of Labor to really 
take this case seriously and investigate.
    As a representative of this group of the Alliance, I ask 
that the Department of Labor investigate these companies, that 
they make sure that people who are coming to these companies 
are treated in the way that they are supposed to be treated 
under the law. I also ask that the Department of Labor offer 
immigration protection for workers who report companies, so 
that they are not afraid to come forward if they are in a 
situation where their rights are being taken advantage of. And 
we ask for ourselves and everyone else that the Department of 
Labor doesn't take so long to give a response, because we 
cannot wait.
    Thank you for the opportunity to give my testimony. I hope 
that this results in justice and we demand that the Department 
of Labor really takes this case seriously and investigates it 
so that there is justice for us and for our workers. Thank you.
    [The prepared statement of Mr. Lopez follows:]

    [GRAPHIC] [TIFF OMITTED] T1324.016
    
    [GRAPHIC] [TIFF OMITTED] T1324.017
    
    [GRAPHIC] [TIFF OMITTED] T1324.018
    
    Mr. Kucinich. Gracias, Senor Lopez.
    Senor Castellanos-Contreras.

           STATEMENT OF DANIEL CASTELLANOS-CONTRERAS

    [The following testimony was delivered through an 
interpreter.]
    Mr. Castellanos-Contreras. Good morning. My name is Daniel 
Castellanos. I am from Peru and I come here representing many 
guestworkers that are members of the Alliance. Four thousand 
dollars, that is what I paid to come to the United States, 
leaving my family extremely in debt.
    In Peru, $4,000 is what I would make during a whole year of 
hard work, and an amount of money that only rich people have on 
hand. As an organizer with the Alliance, I have known hundreds 
and hundreds of workers, all of whom have suffered and been 
oppressed by the huge debt that they have, all in order to come 
and work in this country, the United States, workers that sold 
their houses, mortgaged land, and sold personal family items in 
order to come. The majority of guestworkers continue to be in 
debt because their visa terms are very short and they have to 
pay for very expensive extensions, which trap them in this 
cycle of debt. For this reason, the debt is so important in the 
relation between the boss and the worker.
    With the current regulations, the way debt plays out is a 
clear violation of the minimum wage. Also, the debt is what 
keeps workers silent, because, if you protest, you could be 
fired, deported, and never be able to pay that money back. So 
we believe that the Department of Labor should really take a 
clear stance on the law around H-2B workers and publish the 
position that the fees and the money that workers pay to come 
to this country are the responsibility and are for the benefit 
of bosses that bring them to this country, and that they should 
reimburse this money to workers during the first 15 days of 
their employment.
    Also, the Department of Labor should take much stronger 
actions in order to enforce this law so that they can fully 
eliminate the debt servitude that we live daily. The Department 
of Labor should also prioritize the immigration protection of 
workers that are in labor disputes with their employers, 
because, without having protection, we are completely 
vulnerable to retaliation by employers.
    We of the Alliance of Guestworkers for Dignity believe that 
we are the experts in the H-2B visa because we live the 
experience daily, so we demand that we be consulted when there 
is improvements to the law. We know that there are many 
interests by companies to expand the number of visas, but if 
the laws don't change so that the workers can come with more 
human conditions, then this is going to just go from bad to 
worse.
    Thank you very much.
    [The prepared statement of Mr. Castellanos-Contreras 
follows:]

[GRAPHIC] [TIFF OMITTED] T1324.019

[GRAPHIC] [TIFF OMITTED] T1324.020

[GRAPHIC] [TIFF OMITTED] T1324.021

[GRAPHIC] [TIFF OMITTED] T1324.022

[GRAPHIC] [TIFF OMITTED] T1324.023

[GRAPHIC] [TIFF OMITTED] T1324.024

[GRAPHIC] [TIFF OMITTED] T1324.025

    Mr. Kucinich. I want to thank the witnesses. We are now 
going to proceed to questions from the committee. I just would 
like the staff to take note of this matter. You know, there are 
a number of constitutional questions that are being raised by 
this testimony, including, I think, one that could present an 
unusual 13th amendment case, which amendment prohibits slavery 
and involuntary servitude, because there is a condition that we 
are talking about here that really reflects being coerced into 
a form of involuntary servitude, and I would like staff to take 
note of that as a possible course of action that this committee 
may want to pursue.
    I would like to begin my questions with Mr. Raju.
    I understand that the Department of Labor failed to 
investigate even the most basic wage violation claims. Has the 
Department of Labor, to your knowledge, done anything to 
prosecute wage claims since the filing of your lawsuit?
    Mr. Raju. From even coming to the camp in the beginning 
until this day, I don't believe the Department of Labor has 
been involved in any part of our----
    Mr. Kucinich. No action whatsoever that you are aware of?
    Mr. Raju. I am not aware of anything that they have done.
    Mr. Kucinich. OK, staff is also going to have to take note 
of that testimony.
    I want to assure you, Mr. Raju, and your fellow plaintiffs 
that this subcommittee is going to continue to advocate that 
the Department of Labor and the Department of Justice 
adequately investigate these allegations of trafficking of 
guestworkers.
    Now, with respect to Senor Lopez, I am going to be 
instructing my staff to contact the Department of Labor and 
inquire about the status of the complaint that you made in 
February to the Office of Inspector General regarding the abuse 
that you received by your H-2B employer. It may take longer 
than we would all like for this new administration to make 
changes, but we are going to hold them to their promise to 
protect workers' rights.
    What is the single-most important protection you feel would 
help ensure guestworkers do not experience the difficulties 
that you have had? What kind of protection do you think would 
be necessary?
    Mr. Lopez. That would be the fact that I belong to one 
boss, and the change would be that we would have the freedom to 
work for other companies, not just the boss that brought us 
here.
    Mr. Kucinich. Thank you very much. To Mr. Castellanos-
Contreras, as an organizer for Alliance of Guestworkers for 
Dignity, have you ever met with the Department of Labor about 
improving its outreach and enforcement of the rights of 
guestworkers?
    Mr. Castellanos-Contreras. As an organizer, we have gone to 
the Department of Labor many times, trying to bring cases to 
them in different States, but they always deny taking action on 
these cases, saying that it is not their responsibility or 
jurisdiction. They have told us that it is the responsibility 
of the State Department because we are immigrants, not 
nationals, even though, reading the law, I know that, as 
temporary workers, we have the same labor rights as any 
American.
    Mr. Kucinich. I thank you. I want to ask one final 
question, and that is did the Department of Labor ever 
investigate charges that Decatur violated the Fair Labor 
Standards Act by retaliating against you?
    Mr. Castellanos-Contreras. No.
    Mr. Kucinich. Did you have any contact with the Department 
of Labor about that case?
    Mr. Castellanos-Contreras. We did have some contact, but 
the Department of Labor never----
    Mr. Kucinich. Nothing was done. OK, thank you for your 
testimony.
    We are going to now move to questions from the ranking 
member, Mr. Jordan. You may proceed.
    Mr. Jordan. Thank you, Mr. Chairman.
    I want to thank all of you for your testimony. Let me just 
ask a couple basics, first. How long have each of you been in 
the United States?
    Mr. Castellanos-Contreras. We have been invited to discuss 
improvements to the laws of the H-2B program, and as a policy 
of the Alliance, we don't really think that is an appropriate 
question.
    Mr. Jordan. OK. Well, let me ask you this. Have you or 
would you reapply for the H-2B visa?
    Mr. Castellanos-Contreras. As an organizer, I have seen 
guestworkers that reapply many times to come and work here, 
because in the very short time that they are given the visa 
for, they don't have the ability to recuperate the money that 
they paid to come. So it creates a vicious circle where people 
are forced to continue to pay to come back to the country.
    Mr. Jordan. I understand, I understand. The question is did 
any of the witnesses on this panel, have any of you reapplied 
or would you consider reapplying, based on the experience you 
have had and the experience that you have testified to.
    Mr. Castellanos-Contreras. Again, we are just going to have 
to say, as a policy of Alliance, we don't comment on individual 
immigration status.
    Mr. Raju. If you are asking me will I apply again, if it is 
this same way that I am coming, I have no more homes to sell or 
nothing else left in my life. I would not come here under this 
circumstance again.
    Mr. Jordan. If you could--and I don't care which of the 
witnesses takes this question--talk to me more about this 
recruitment process; who the recruiter is. It sounds to me like 
they are getting compensated basically from both sides, the 
potential employers are compensating the recruiter to find 
workers, you are having to pay to come to the United States.
    I know there have been some changes there, but talk to me a 
little bit more about that. And I know we are going to explore 
this issue with the second panel, but I was interested on your 
thoughts on the recruitment process. And we have the general 
gist, but if you could go into it a little bit more, I think 
that would be helpful. And I don't care whichever one of our 
witnesses wants to answer. But my time is running, so one of 
you jump in there. [Laughter.]
    Mr. Raju, go ahead, if you would like to. It doesn't 
matter.
    Mr. Castellanos-Contreras. I have personal experience and 
also the experience that we see daily as organizers. We have 
seen that the recruitment process is totally a business----
    Mr. Jordan. This is a guy who is somewhat naive in all 
this. Is the recruiter an organization in your home country, 
the country you came from, your native country, or is the 
recruiter a company here in the United States? How is it 
typically done?
    Mr. Castellanos-Contreras. It is really a chain that starts 
in the United States and then comes to our countries. There are 
local recruiters in our home countries, and everybody is taking 
money from us and we are unable to recuperate anything. I 
repeat, it is a business.
    Mr. Jordan. No, I understand that.
    OK, Mr. Chairman.
    Mr. Kucinich. I thank the gentleman for his question. 
Actually, that is something that this subcommittee thinks is 
worth of a little bit closer look, because you raise an 
interesting point; are people raising money from both sides 
here.
    Mr. Jordan. They definitely are.
    Mr. Kucinich. Thank you, Mr. Jordan.
    The Chair recognizes Mr. Foster.
    Mr. Foster. This would be for Mr. Raju. Did you have 
difficulty contacting the Department of Labor? Is there an 800 
number? Do most people in your situation have a cell phone, or 
is there an impediment to even making contact with anyone who 
will help you?
    Mr. Raju. Since coming to this country, we had no idea of 
the laws or the ways of this land. When we came here, the 
living conditions were horrible, and we asked for it to be 
improved and they said this is the living condition of this 
land, it is according to the laws of this land that you are 
living this way. We did not even know which departments exist 
to protect us, and we didn't have the number or information, so 
we were unable to contact them.
    Mr. Foster. Did you receive any information at all about 
what your rights are as a worker?
    Mr. Raju. No, we never got any papers or anything that said 
it. Sometimes in companies they say if you are harassed, you 
can call this number, but we never got any information like 
that even hanging up in the companies.
    Mr. Foster. One last question. Mr. Raju, can you weld 
aluminum?
    Mr. Raju. Aluminum, carbon steel, stainless steel.
    Mr. Foster. All right, you have my respect. Particularly 
aluminum. One of the most humiliating experiences of my life 
was trying to weld aluminum. [Laughter.]
    Mr. Kucinich. If the gentleman would yield, I know you are 
speaking not only as an amateur aluminum welder, but also as a 
physicist.
    Mr. Foster. Mr. Lopez, are you aware of any labor brokers 
that actually do a good job and treat their workers fairly?
    Mr. Lopez. I only know my own boss, and I know how he has 
treated me and what he has done to us. I actually only know him 
by name, not by face. I don't know any other bosses that have 
treated workers well.
    Mr. Foster. Mr. Castellanos-Contreras, how are these debts 
enforced? Are they enforced against your families back home? 
Are they enforced in the United States? Do you have to put all 
the money up front so that you become indebted to third 
parties? How exactly does the debt enforcement work?
    Mr. Castellanos-Contreras. In terms of the debt that 
happens to workers, you have to pay everything up front. Many 
in our poor countries, we don't have this kind of money, so we 
sell our things, we borrow money from banks, or the more common 
and worst case is when you get loans from loan sharks that 
charge huge interest rates; and all because the recruiters 
promise you that you are going to recuperate this money very 
quickly. But when you find that what the recruiter told you was 
a lie, your debt is growing hugely, and that is what prevents 
you from protesting or from raising your voice against the 
abuses that your boss is doing to you.
    Mr. Foster. Thank you. I yield back.
    Mr. Kucinich. Thank you, Mr. Foster.
    I want to thank the witnesses for taking time to share your 
experiences with this subcommittee. It is clear that the 
Department of Labor failed to adequately protect your rights. 
When people come to this country and use a legal process to get 
here, they should be entitled to the protections of law. You 
were not. The recommendations you have provided for how the 
Department of Labor can better ensure guestworkers' rights are 
insightful, and this committee will continue to press the 
Department of Labor to take actions that will protect the 
rights of workers.
    In many ways, I believe workers' rights are human rights. 
Yo creo es muy importante para los derechos de los trabadores. 
So I thank you very much for being here and the first panel is 
dismissed.
    Let's go to the second panel.
    Mr. Castellanos-Contreras. Thank you. It is time to hope.
    Mr. Kucinich. As the second panel is getting into place, I 
would like to begin the introductions of the second panel.
    We have Mr. Saket Soni, co-founder and organizer for the 
New Orleans Workers' Center for Racial Justice and a member of 
the Advancement Project, the Workers' Justice Center for Racial 
Equality and the New Orleans Workers' Justice Coalition, which 
is an independent community-based organization advocating for 
and organizing workers in post-Katrina New Orleans. Mr. Soni 
also works to bring together immigrant Latinos and displaced 
New Orleaneans. He is co-author of a book called ``And 
Injustice For All, A Comprehensive Documentation of the 
Conditions for Workers in Post-Katrina New Orleans.''
    Ms. Mary Bauer is the director of the Southern Poverty Law 
Center's Immigrant Justice Project, now located in Atlanta, GA. 
The Immigrant Justice Project represents guestworkers and other 
low-wage immigrant workers in high-impact cases in nine States 
in the south. Ms. Bauer is the author of ``Close to Slavery: 
Guestworker Programs in the United States,'' published in 2007, 
and ``Under Siege: Life for Low-Income Latinos in the South,'' 
published in 2009. Prior to joining the Southern Poverty Law 
Center, she was legal director of the Virginia Justice Center 
for Farm and Immigrant Workers and legal director of the 
Virginia ACLU.
    Catherine Ruckelshaus is legal co-director at the National 
Employment Law Project in New York City. Her primary areas of 
expertise on behalf of low-wage workers are the labor and 
employment rights of contingent and immigrant workers. Ms. 
Ruckelshaus co-founded the National Wage and Hour Clearinghouse 
dedicated to advancing labor standards for all workers. Among 
recent cases, Ms. Ruckelshaus was lead counsel in the class 
action Ensumana v. Crestedas, a Fair Labor Standards Act case 
brought on behalf of nearly 1,000 West African immigrant 
grocery delivery workers against the contracting services who 
hired them and stores who employed them. That case netted over 
$6 million in unpaid wages for the workers.
    Patrick A. McLaughlin is a Ph.D. research fellow at the 
Mercatus Center at George Mason University, which he joined in 
the summer of 2008. He was previously a graduate research 
fellow at the Property Environmental Research Center. Dr. 
McLaughlin's research interests include environmental and 
homeland security regulations. Some of his current research is 
particularly focused on the consequences of regulatory actions 
on small business, foreign direct investment, and trade flows. 
He has been published in World Economy and Regulation Magazine.
    I want to welcome this distinguished panel of witnesses. It 
is the policy of the Committee on Oversight and Government 
Reform to swear in all witnesses before they testify. I would 
ask that you now rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Kucinich. Let the record reflect that each of the 
witnesses answered in the affirmative.
    Thank you for being here. Mr. Soni, let's start with your 
testimony. I would again remind the witnesses that your entire 
testimony will be included in the record of this hearing. I ask 
that you try to keep your testimony to around 5 minutes or 
under 5 minutes. That would be appreciated.
    Please proceed, Mr. Soni.

   STATEMENTS OF SAKET SONI, EXECUTIVE DIRECTOR, NEW ORLEANS 
   WORKERS' CENTER FOR RACIAL JUSTICE; MARY BAUER, DIRECTOR, 
    IMMIGRANT JUSTICE PROJECT, SOUTHERN POVERTY LAW CENTER; 
 CATHERINE RUCKELSHAUS, LEGAL CO-DIRECTOR, NATIONAL EMPLOYMENT 
   LAW PROJECT; AND PROFESSOR PATRICK A. MCLAUGHLIN, PH.D., 
           MERCATUS CENTER AT GEORGE MASON UNIVERSITY

                    STATEMENT OF SAKET SONI

    Mr. Soni. Chairman Kucinich and members of the 
subcommittee, thank you for the opportunity to speak about how 
the exploitation of guestworkers continues to be a critical 
building block of the post-Katrina reconstruction. I also want 
to thank you for this opportunity to talk about how this 
exploitation has been directly enabled by the inadequate 
response and, indeed, the abject absence of the Department of 
Labor Wage and Hour Division.
    My name is Saket Soni. I am the executive director of the 
New Orleans Workers' Center for Racial Justice. In 2007, we 
founded the Alliance of Guestworkers for Dignity, the only 
organization in theUnited States that is membership driven, 
that brings guestworkers together on H-2B visas across many 
industry sectors and countries. Our members come from around 
the globe, including the Dominican Republic, Mexico, Peru, El 
Salvador, Brazil, Bolivia, and India.
    In the last 3 years, we have had hundreds of consultations, 
conversations, and interviews with guestworkers facing severe 
labor exploitation in a vacuum of Federal worker protections. 
Our members have organized and exposed exploitation within this 
program.
    Since Hurricane Katrina, hundreds of our members have also 
brought four major lawsuits against employers whose abuse is 
exemplary of the realities of this guestworker program. 
Earlier, on the last panel, you heard the testimonies of three 
of our members. I would like to start by sharing with you some 
of the stories of our members that illustrate the severe 
exploitation that they face and that expose the pattern of 
abuse that is pervasive in the guestworker program.
    You all know, of course, the story of Decatur Hotels. 
Decatur imported workers from Peru, Bolivia, and the Dominican 
Republic to come to the United States. These workers arrived 
heavily in debt and faced exploitative conditions. They also 
faced threats for raising their voice. Patrick Quinn, the 
luxury hotelier who brought these workers from these countries, 
did it at a time when hundreds of thousands of American 
workers, African-American workers were displaced from the 
region and when hundreds of unemployed African-American 
survivors of Hurricane Katrina were living in his hotels.
    At this time, the Department of Labor certified him to 
bring guestworkers, agreeing with him that he couldn't find a 
single U.S. worker willing or able to take these jobs. If Mr. 
Quinn had wanted to hire U.S. workers, all he would have had to 
do would be to go to one of the floors of any one of his hotels 
and knock on the door. Instead, he brought workers to do $14 
and $12 an hour jobs at just above $6 or $7 an hour from Latin 
America on H-2B visas.
    Meanwhile, guestworkers in Mississippi and Texas who were 
brought from India escaped a situation of severe labor 
exploitation and, along with other organizations, brought legal 
suit in Louisiana against Signal International and an 
international recruitment chain that plunged these workers into 
debt, brought them here, and exposed them to exploitative 
conditions.
    In Tennessee, while an economic crisis engulfed families in 
the south, a company called Cumberland Environmental Resource 
defrauded both the U.S. Government and guestworkers to bring 
them here. They said there would be work in Tennessee. The 
workers were brought and for 3 months there was no work. The 
workers were then leased across the south in several States, 
astonishingly, even at military bases. Meanwhile, Cumberland 
represented to the U.S. Government that local workers had 
applied for the jobs, but, when they had been offered the jobs, 
had turned them down.
    When we interviewed the local workers who had applied for 
these jobs, every one of the interviewees said that they were 
in a state of economic desperation when they applied and they 
would have gladly taken those jobs. Every one of our 
interviewees said that, if the jobs had been offered to them, 
they would have taken them. The reality is, though, that these 
U.S. workers could not have taken the jobs at the wage rate 
offered and on the terms and conditions offered by the company.
    These stories reveal a pattern of abuse and they illuminate 
a structure of exploitation, and I would like to unpack a 
little bit what hundreds of our members have reported as the 
salient features of exploitation within the guestworker 
program.
    Mr. Kucinich. The gentleman's time has expired.
    Mr. Soni. OK.
    Mr. Kucinich. Your complete testimony will be included in 
the record of this hearing, and we thank you for being here and 
for making this presentation. But I will assure you that 
everything that you present to this committee is going to be 
analyzed and followed up on.
    Mr. Soni. Thank you.
    [The prepared statement of Mr. Soni follows:]

    [GRAPHIC] [TIFF OMITTED] T1324.026
    
    [GRAPHIC] [TIFF OMITTED] T1324.027
    
    [GRAPHIC] [TIFF OMITTED] T1324.028
    
    [GRAPHIC] [TIFF OMITTED] T1324.029
    
    [GRAPHIC] [TIFF OMITTED] T1324.030
    
    [GRAPHIC] [TIFF OMITTED] T1324.031
    
    [GRAPHIC] [TIFF OMITTED] T1324.032
    
    [GRAPHIC] [TIFF OMITTED] T1324.033
    
    [GRAPHIC] [TIFF OMITTED] T1324.034
    
    [GRAPHIC] [TIFF OMITTED] T1324.035
    
    [GRAPHIC] [TIFF OMITTED] T1324.036
    
    [GRAPHIC] [TIFF OMITTED] T1324.037
    
    [GRAPHIC] [TIFF OMITTED] T1324.038
    
    Mr. Kucinich. Ms. Bauer.

                    STATEMENT OF MARY BAUER

    Ms. Bauer. Thank you, Mr. Chairman and members of this 
committee for inviting me to speak about DOL's role in 
protecting H-2B guestworkers.
    You have heard substantial testimony today about the abuses 
endemic in this program. I have personally represented and 
interviewed thousands of guestworkers over the course of my 
career and can certainly confirm that our experiences 
representing H-2B workers reveal that the program is deeply 
flawed. Further, it is clear that the flaws in this program are 
not the product of a few bad apple employers, but are the 
product of the very structure of the program and the utter 
failure of the Department of Labor to take action to protect 
these workers.
    None of the significant protections that have existed, at 
least on paper, for H-2A workers, for example, have been 
adopted relative to H-2B workers, as the Department of Labor 
has never promulgated substantive labor protections for H-2B 
workers. So there is no requirement for free housing in the H-
2B context, no requirement that housing be decent, and when 
they are abused on the job, H-2B workers are not even eligible 
for federally funded legal services. Under this system, workers 
lack the real ability to combat exploitation.
    Historically, the Department of Labor has taken the 
position that it could not enforce the H-2B contract. Thus, in 
their view, if a worker was promised a prevailing rate wage of 
$12 an hour, but paid only the Federal minimum wage, the DOL 
would take no action. We believed that this analysis was simply 
wrong, but we are heartened that there has been a formal 
delegation from DHS to DOL to permit DOL to enforce the H-2B 
provisions.
    Nonetheless, we should acknowledge the inadequate job DOL 
has done historically in protecting guestworkers under the 
statutes, such as the Fair Labor Standards Act and the Migrant 
and Seasonal Agricultural Worker Protection Act, where it has 
always conceded that it did have the authority. In recent 
years, for example, when DOL has asked how many investigations 
of H-2B employers they have conducted, they simply cannot 
answer that question, respond they don't keep records in those 
ways. Our experience is that they undertake very few 
investigations, and when they do they tend to be limited in 
scope, with little relief for workers.
    In our written testimony we laid out some of these examples 
where the Department of Labor conducted an investigation, 
issued a modest civil money penalty, waived that penalty in its 
entirety when the company promised to comply with the law. We 
came along several years later, filed a class action lawsuit, 
got that class action certified, won a summary judgment 
decision, and obtained an expert evaluation of the records that 
found that major discrepancies were apparent on the face of 
those records and that workers had been cheated out of 
something like $20 million. All of this would have been 
apparent to the Department of Labor had they conducted a full 
investigation of that company.
    Unfortunately, the poor track record of protecting H-2B 
workers is not limited to one administration or to one party. 
For example, the Department of Labor has historically taken the 
position that the one-time travel and recruitment costs of 
migrant workers cannot cut into workers' wages in such a way 
that caused them to earn less than the minimum wage in the 
first week of work.
    This has been the position of the Department of Labor since 
before 1970. This is an incredibly important rule under the 
Fair Labor Standards Act to protect guestworkers. However, 
during the 1990's, the DOL announced that, while this was still 
the stated position of the administration, they were adopting a 
non-enforcement position and the Department would decline to 
enforce this critical part of the law.
    Worse, the Bush administration tried to actively subvert 
the law by attaching a preamble to midnight regulations which 
went into effect in January 2009. This preamble purported to 
undue more than 30 years of policy and law in one fell swoop 
and was never subjected to notice and comment. The regs that 
were enacted by the Bush administration eviscerated the very 
few protections which did exist for H-2B workers. Those regs 
should simply be repealed and the Department should promulgate 
true substantive labor protections which would serve to protect 
guestworkers and U.S. workers in the industries which employ H-
2B workers.
    This deeply troubled program requires oversight by 
Congress. Specifically, we would ask that Congress hold 
additional hearings on the issue related to the administration 
of the guestworker programs, and we are heartened that the 
Secretary of Labor will be back to testify about plans for this 
administration.
    In conclusion, the abuses of these programs are too common 
to blame on a few bad employers; they are the foreseeable 
outcome of a system that treats foreign workers as commodities 
to be imported, without providing them adequate legal 
safeguards.
    Thank you.
    [The prepared statement of Ms. Bauer follows:]

    [GRAPHIC] [TIFF OMITTED] T1324.039
    
    [GRAPHIC] [TIFF OMITTED] T1324.040
    
    [GRAPHIC] [TIFF OMITTED] T1324.041
    
    [GRAPHIC] [TIFF OMITTED] T1324.042
    
    [GRAPHIC] [TIFF OMITTED] T1324.043
    
    [GRAPHIC] [TIFF OMITTED] T1324.044
    
    [GRAPHIC] [TIFF OMITTED] T1324.045
    
    [GRAPHIC] [TIFF OMITTED] T1324.046
    
    [GRAPHIC] [TIFF OMITTED] T1324.047
    
    [GRAPHIC] [TIFF OMITTED] T1324.048
    
    [GRAPHIC] [TIFF OMITTED] T1324.049
    
    [GRAPHIC] [TIFF OMITTED] T1324.050
    
    [GRAPHIC] [TIFF OMITTED] T1324.051
    
    [GRAPHIC] [TIFF OMITTED] T1324.052
    
    [GRAPHIC] [TIFF OMITTED] T1324.053
    
    [GRAPHIC] [TIFF OMITTED] T1324.054
    
    [GRAPHIC] [TIFF OMITTED] T1324.055
    
    [GRAPHIC] [TIFF OMITTED] T1324.056
    
    [GRAPHIC] [TIFF OMITTED] T1324.057
    
    [GRAPHIC] [TIFF OMITTED] T1324.058
    
    [GRAPHIC] [TIFF OMITTED] T1324.059
    
    [GRAPHIC] [TIFF OMITTED] T1324.060
    
    [GRAPHIC] [TIFF OMITTED] T1324.061
    
    [GRAPHIC] [TIFF OMITTED] T1324.062
    
    [GRAPHIC] [TIFF OMITTED] T1324.063
    
    [GRAPHIC] [TIFF OMITTED] T1324.064
    
    [GRAPHIC] [TIFF OMITTED] T1324.065
    
    [GRAPHIC] [TIFF OMITTED] T1324.066
    
    [GRAPHIC] [TIFF OMITTED] T1324.067
    
    [GRAPHIC] [TIFF OMITTED] T1324.068
    
    [GRAPHIC] [TIFF OMITTED] T1324.069
    
    [GRAPHIC] [TIFF OMITTED] T1324.070
    
    [GRAPHIC] [TIFF OMITTED] T1324.071
    
    [GRAPHIC] [TIFF OMITTED] T1324.072
    
    [GRAPHIC] [TIFF OMITTED] T1324.073
    
    [GRAPHIC] [TIFF OMITTED] T1324.074
    
    [GRAPHIC] [TIFF OMITTED] T1324.075
    
    [GRAPHIC] [TIFF OMITTED] T1324.076
    
    [GRAPHIC] [TIFF OMITTED] T1324.077
    
    [GRAPHIC] [TIFF OMITTED] T1324.078
    
    [GRAPHIC] [TIFF OMITTED] T1324.079
    
    [GRAPHIC] [TIFF OMITTED] T1324.080
    
    [GRAPHIC] [TIFF OMITTED] T1324.081
    
    [GRAPHIC] [TIFF OMITTED] T1324.082
    
    [GRAPHIC] [TIFF OMITTED] T1324.083
    
    [GRAPHIC] [TIFF OMITTED] T1324.084
    
    [GRAPHIC] [TIFF OMITTED] T1324.085
    
    [GRAPHIC] [TIFF OMITTED] T1324.086
    
    [GRAPHIC] [TIFF OMITTED] T1324.087
    
    [GRAPHIC] [TIFF OMITTED] T1324.088
    
    [GRAPHIC] [TIFF OMITTED] T1324.089
    
    [GRAPHIC] [TIFF OMITTED] T1324.090
    
    [GRAPHIC] [TIFF OMITTED] T1324.091
    
    [GRAPHIC] [TIFF OMITTED] T1324.092
    
    [GRAPHIC] [TIFF OMITTED] T1324.093
    
    [GRAPHIC] [TIFF OMITTED] T1324.094
    
    [GRAPHIC] [TIFF OMITTED] T1324.095
    
    [GRAPHIC] [TIFF OMITTED] T1324.096
    
    [GRAPHIC] [TIFF OMITTED] T1324.097
    
    [GRAPHIC] [TIFF OMITTED] T1324.098
    
    [GRAPHIC] [TIFF OMITTED] T1324.099
    
    [GRAPHIC] [TIFF OMITTED] T1324.100
    
    [GRAPHIC] [TIFF OMITTED] T1324.101
    
    [GRAPHIC] [TIFF OMITTED] T1324.102
    
    [GRAPHIC] [TIFF OMITTED] T1324.103
    
    [GRAPHIC] [TIFF OMITTED] T1324.104
    
    [GRAPHIC] [TIFF OMITTED] T1324.105
    
    [GRAPHIC] [TIFF OMITTED] T1324.106
    
    [GRAPHIC] [TIFF OMITTED] T1324.107
    
    [GRAPHIC] [TIFF OMITTED] T1324.108
    
    [GRAPHIC] [TIFF OMITTED] T1324.109
    
    [GRAPHIC] [TIFF OMITTED] T1324.110
    
    [GRAPHIC] [TIFF OMITTED] T1324.111
    
    [GRAPHIC] [TIFF OMITTED] T1324.112
    
    [GRAPHIC] [TIFF OMITTED] T1324.113
    
    [GRAPHIC] [TIFF OMITTED] T1324.114
    
    [GRAPHIC] [TIFF OMITTED] T1324.115
    
    [GRAPHIC] [TIFF OMITTED] T1324.116
    
    [GRAPHIC] [TIFF OMITTED] T1324.117
    
    [GRAPHIC] [TIFF OMITTED] T1324.118
    
    [GRAPHIC] [TIFF OMITTED] T1324.119
    
    [GRAPHIC] [TIFF OMITTED] T1324.120
    
    [GRAPHIC] [TIFF OMITTED] T1324.121
    
    [GRAPHIC] [TIFF OMITTED] T1324.122
    
    [GRAPHIC] [TIFF OMITTED] T1324.123
    
    [GRAPHIC] [TIFF OMITTED] T1324.124
    
    [GRAPHIC] [TIFF OMITTED] T1324.125
    
    [GRAPHIC] [TIFF OMITTED] T1324.126
    
    [GRAPHIC] [TIFF OMITTED] T1324.127
    
    [GRAPHIC] [TIFF OMITTED] T1324.128
    
    [GRAPHIC] [TIFF OMITTED] T1324.129
    
    [GRAPHIC] [TIFF OMITTED] T1324.130
    
    [GRAPHIC] [TIFF OMITTED] T1324.131
    
    [GRAPHIC] [TIFF OMITTED] T1324.132
    
    [GRAPHIC] [TIFF OMITTED] T1324.133
    
    [GRAPHIC] [TIFF OMITTED] T1324.134
    
    [GRAPHIC] [TIFF OMITTED] T1324.135
    
    [GRAPHIC] [TIFF OMITTED] T1324.136
    
    [GRAPHIC] [TIFF OMITTED] T1324.137
    
    [GRAPHIC] [TIFF OMITTED] T1324.138
    
    [GRAPHIC] [TIFF OMITTED] T1324.139
    
    [GRAPHIC] [TIFF OMITTED] T1324.140
    
    [GRAPHIC] [TIFF OMITTED] T1324.141
    
    [GRAPHIC] [TIFF OMITTED] T1324.142
    
    [GRAPHIC] [TIFF OMITTED] T1324.143
    
    [GRAPHIC] [TIFF OMITTED] T1324.144
    
    [GRAPHIC] [TIFF OMITTED] T1324.145
    
    [GRAPHIC] [TIFF OMITTED] T1324.146
    
    [GRAPHIC] [TIFF OMITTED] T1324.147
    
    [GRAPHIC] [TIFF OMITTED] T1324.148
    
    [GRAPHIC] [TIFF OMITTED] T1324.149
    
    [GRAPHIC] [TIFF OMITTED] T1324.150
    
    [GRAPHIC] [TIFF OMITTED] T1324.151
    
    [GRAPHIC] [TIFF OMITTED] T1324.152
    
    [GRAPHIC] [TIFF OMITTED] T1324.153
    
    [GRAPHIC] [TIFF OMITTED] T1324.154
    
    [GRAPHIC] [TIFF OMITTED] T1324.155
    
    [GRAPHIC] [TIFF OMITTED] T1324.156
    
    [GRAPHIC] [TIFF OMITTED] T1324.157
    
    [GRAPHIC] [TIFF OMITTED] T1324.158
    
    [GRAPHIC] [TIFF OMITTED] T1324.159
    
    [GRAPHIC] [TIFF OMITTED] T1324.160
    
    [GRAPHIC] [TIFF OMITTED] T1324.161
    
    [GRAPHIC] [TIFF OMITTED] T1324.162
    
    [GRAPHIC] [TIFF OMITTED] T1324.163
    
    [GRAPHIC] [TIFF OMITTED] T1324.164
    
    [GRAPHIC] [TIFF OMITTED] T1324.165
    
    [GRAPHIC] [TIFF OMITTED] T1324.166
    
    [GRAPHIC] [TIFF OMITTED] T1324.167
    
    [GRAPHIC] [TIFF OMITTED] T1324.168
    
    [GRAPHIC] [TIFF OMITTED] T1324.169
    
    [GRAPHIC] [TIFF OMITTED] T1324.170
    
    [GRAPHIC] [TIFF OMITTED] T1324.171
    
    [GRAPHIC] [TIFF OMITTED] T1324.172
    
    [GRAPHIC] [TIFF OMITTED] T1324.173
    
    [GRAPHIC] [TIFF OMITTED] T1324.174
    
    [GRAPHIC] [TIFF OMITTED] T1324.175
    
    [GRAPHIC] [TIFF OMITTED] T1324.176
    
    [GRAPHIC] [TIFF OMITTED] T1324.177
    
    [GRAPHIC] [TIFF OMITTED] T1324.178
    
    [GRAPHIC] [TIFF OMITTED] T1324.179
    
    [GRAPHIC] [TIFF OMITTED] T1324.180
    
    [GRAPHIC] [TIFF OMITTED] T1324.181
    
    [GRAPHIC] [TIFF OMITTED] T1324.182
    
    [GRAPHIC] [TIFF OMITTED] T1324.183
    
    [GRAPHIC] [TIFF OMITTED] T1324.184
    
    [GRAPHIC] [TIFF OMITTED] T1324.185
    
    [GRAPHIC] [TIFF OMITTED] T1324.186
    
    [GRAPHIC] [TIFF OMITTED] T1324.187
    
    [GRAPHIC] [TIFF OMITTED] T1324.188
    
    [GRAPHIC] [TIFF OMITTED] T1324.189
    
    [GRAPHIC] [TIFF OMITTED] T1324.190
    
    [GRAPHIC] [TIFF OMITTED] T1324.191
    
    [GRAPHIC] [TIFF OMITTED] T1324.192
    
    [GRAPHIC] [TIFF OMITTED] T1324.193
    
    [GRAPHIC] [TIFF OMITTED] T1324.194
    
    [GRAPHIC] [TIFF OMITTED] T1324.195
    
    [GRAPHIC] [TIFF OMITTED] T1324.196
    
    [GRAPHIC] [TIFF OMITTED] T1324.197
    
    [GRAPHIC] [TIFF OMITTED] T1324.198
    
    [GRAPHIC] [TIFF OMITTED] T1324.199
    
    [GRAPHIC] [TIFF OMITTED] T1324.200
    
    [GRAPHIC] [TIFF OMITTED] T1324.201
    
    [GRAPHIC] [TIFF OMITTED] T1324.202
    
    [GRAPHIC] [TIFF OMITTED] T1324.203
    
    [GRAPHIC] [TIFF OMITTED] T1324.204
    
    [GRAPHIC] [TIFF OMITTED] T1324.205
    
    [GRAPHIC] [TIFF OMITTED] T1324.206
    
    [GRAPHIC] [TIFF OMITTED] T1324.207
    
    [GRAPHIC] [TIFF OMITTED] T1324.208
    
    [GRAPHIC] [TIFF OMITTED] T1324.209
    
    [GRAPHIC] [TIFF OMITTED] T1324.210
    
    [GRAPHIC] [TIFF OMITTED] T1324.211
    
    [GRAPHIC] [TIFF OMITTED] T1324.212
    
    [GRAPHIC] [TIFF OMITTED] T1324.213
    
    [GRAPHIC] [TIFF OMITTED] T1324.214
    
    [GRAPHIC] [TIFF OMITTED] T1324.215
    
    [GRAPHIC] [TIFF OMITTED] T1324.216
    
    [GRAPHIC] [TIFF OMITTED] T1324.217
    
    [GRAPHIC] [TIFF OMITTED] T1324.218
    
    [GRAPHIC] [TIFF OMITTED] T1324.219
    
    [GRAPHIC] [TIFF OMITTED] T1324.220
    
    [GRAPHIC] [TIFF OMITTED] T1324.221
    
    [GRAPHIC] [TIFF OMITTED] T1324.222
    
    [GRAPHIC] [TIFF OMITTED] T1324.223
    
    [GRAPHIC] [TIFF OMITTED] T1324.224
    
    [GRAPHIC] [TIFF OMITTED] T1324.225
    
    [GRAPHIC] [TIFF OMITTED] T1324.226
    
    [GRAPHIC] [TIFF OMITTED] T1324.227
    
    [GRAPHIC] [TIFF OMITTED] T1324.228
    
    [GRAPHIC] [TIFF OMITTED] T1324.229
    
    [GRAPHIC] [TIFF OMITTED] T1324.230
    
    [GRAPHIC] [TIFF OMITTED] T1324.231
    
    [GRAPHIC] [TIFF OMITTED] T1324.232
    
    [GRAPHIC] [TIFF OMITTED] T1324.233
    
    [GRAPHIC] [TIFF OMITTED] T1324.234
    
    [GRAPHIC] [TIFF OMITTED] T1324.235
    
    [GRAPHIC] [TIFF OMITTED] T1324.236
    
    [GRAPHIC] [TIFF OMITTED] T1324.237
    
    [GRAPHIC] [TIFF OMITTED] T1324.238
    
    [GRAPHIC] [TIFF OMITTED] T1324.239
    
    [GRAPHIC] [TIFF OMITTED] T1324.240
    
    [GRAPHIC] [TIFF OMITTED] T1324.241
    
    [GRAPHIC] [TIFF OMITTED] T1324.242
    
    [GRAPHIC] [TIFF OMITTED] T1324.243
    
    [GRAPHIC] [TIFF OMITTED] T1324.244
    
    [GRAPHIC] [TIFF OMITTED] T1324.245
    
    [GRAPHIC] [TIFF OMITTED] T1324.246
    
    [GRAPHIC] [TIFF OMITTED] T1324.247
    
    [GRAPHIC] [TIFF OMITTED] T1324.248
    
    [GRAPHIC] [TIFF OMITTED] T1324.249
    
    [GRAPHIC] [TIFF OMITTED] T1324.250
    
    [GRAPHIC] [TIFF OMITTED] T1324.251
    
    [GRAPHIC] [TIFF OMITTED] T1324.252
    
    [GRAPHIC] [TIFF OMITTED] T1324.253
    
    [GRAPHIC] [TIFF OMITTED] T1324.254
    
    [GRAPHIC] [TIFF OMITTED] T1324.255
    
    [GRAPHIC] [TIFF OMITTED] T1324.256
    
    [GRAPHIC] [TIFF OMITTED] T1324.257
    
    [GRAPHIC] [TIFF OMITTED] T1324.258
    
    [GRAPHIC] [TIFF OMITTED] T1324.259
    
    [GRAPHIC] [TIFF OMITTED] T1324.260
    
    [GRAPHIC] [TIFF OMITTED] T1324.261
    
    [GRAPHIC] [TIFF OMITTED] T1324.262
    
    [GRAPHIC] [TIFF OMITTED] T1324.263
    
    [GRAPHIC] [TIFF OMITTED] T1324.264
    
    [GRAPHIC] [TIFF OMITTED] T1324.265
    
    [GRAPHIC] [TIFF OMITTED] T1324.266
    
    [GRAPHIC] [TIFF OMITTED] T1324.267
    
    [GRAPHIC] [TIFF OMITTED] T1324.268
    
    [GRAPHIC] [TIFF OMITTED] T1324.269
    
    [GRAPHIC] [TIFF OMITTED] T1324.270
    
    [GRAPHIC] [TIFF OMITTED] T1324.271
    
    [GRAPHIC] [TIFF OMITTED] T1324.272
    
    [GRAPHIC] [TIFF OMITTED] T1324.273
    
    [GRAPHIC] [TIFF OMITTED] T1324.274
    
    [GRAPHIC] [TIFF OMITTED] T1324.275
    
    [GRAPHIC] [TIFF OMITTED] T1324.276
    
    [GRAPHIC] [TIFF OMITTED] T1324.277
    
    [GRAPHIC] [TIFF OMITTED] T1324.278
    
    [GRAPHIC] [TIFF OMITTED] T1324.279
    
    [GRAPHIC] [TIFF OMITTED] T1324.280
    
    [GRAPHIC] [TIFF OMITTED] T1324.281
    
    [GRAPHIC] [TIFF OMITTED] T1324.282
    
    [GRAPHIC] [TIFF OMITTED] T1324.283
    
    [GRAPHIC] [TIFF OMITTED] T1324.284
    
    [GRAPHIC] [TIFF OMITTED] T1324.285
    
    [GRAPHIC] [TIFF OMITTED] T1324.286
    
    [GRAPHIC] [TIFF OMITTED] T1324.287
    
    [GRAPHIC] [TIFF OMITTED] T1324.288
    
    [GRAPHIC] [TIFF OMITTED] T1324.289
    
    [GRAPHIC] [TIFF OMITTED] T1324.290
    
    [GRAPHIC] [TIFF OMITTED] T1324.291
    
    [GRAPHIC] [TIFF OMITTED] T1324.292
    
    [GRAPHIC] [TIFF OMITTED] T1324.293
    
    [GRAPHIC] [TIFF OMITTED] T1324.294
    
    [GRAPHIC] [TIFF OMITTED] T1324.295
    
    [GRAPHIC] [TIFF OMITTED] T1324.296
    
    [GRAPHIC] [TIFF OMITTED] T1324.297
    
    [GRAPHIC] [TIFF OMITTED] T1324.298
    
    [GRAPHIC] [TIFF OMITTED] T1324.299
    
    [GRAPHIC] [TIFF OMITTED] T1324.300
    
    [GRAPHIC] [TIFF OMITTED] T1324.301
    
    [GRAPHIC] [TIFF OMITTED] T1324.302
    
    [GRAPHIC] [TIFF OMITTED] T1324.303
    
    [GRAPHIC] [TIFF OMITTED] T1324.304
    
    [GRAPHIC] [TIFF OMITTED] T1324.305
    
    [GRAPHIC] [TIFF OMITTED] T1324.306
    
    [GRAPHIC] [TIFF OMITTED] T1324.307
    
    [GRAPHIC] [TIFF OMITTED] T1324.308
    
    [GRAPHIC] [TIFF OMITTED] T1324.309
    
    [GRAPHIC] [TIFF OMITTED] T1324.310
    
    [GRAPHIC] [TIFF OMITTED] T1324.311
    
    [GRAPHIC] [TIFF OMITTED] T1324.312
    
    [GRAPHIC] [TIFF OMITTED] T1324.313
    
    [GRAPHIC] [TIFF OMITTED] T1324.314
    
    [GRAPHIC] [TIFF OMITTED] T1324.315
    
    [GRAPHIC] [TIFF OMITTED] T1324.316
    
    [GRAPHIC] [TIFF OMITTED] T1324.317
    
    [GRAPHIC] [TIFF OMITTED] T1324.318
    
    [GRAPHIC] [TIFF OMITTED] T1324.319
    
    [GRAPHIC] [TIFF OMITTED] T1324.320
    
    [GRAPHIC] [TIFF OMITTED] T1324.321
    
    [GRAPHIC] [TIFF OMITTED] T1324.322
    
    [GRAPHIC] [TIFF OMITTED] T1324.323
    
    [GRAPHIC] [TIFF OMITTED] T1324.324
    
    [GRAPHIC] [TIFF OMITTED] T1324.325
    
    [GRAPHIC] [TIFF OMITTED] T1324.326
    
    [GRAPHIC] [TIFF OMITTED] T1324.327
    
    [GRAPHIC] [TIFF OMITTED] T1324.328
    
    [GRAPHIC] [TIFF OMITTED] T1324.329
    
    Mr. Kucinich. Thank you very much, Ms. Bauer.
    Ms. Ruckelshaus.

               STATEMENT OF CATHERINE RUCKELSHAUS

    Ms. Ruckelshaus. Thank you, Mr. Chairman and members of the 
committee. I appreciate the opportunity to speak today and 
thank you for holding this hearing. My name is Cathy 
Ruckelshaus. I am the legal director at the National Employment 
Law Project. We are a nonprofit that specializes in access to 
and keeping good jobs for all workers. We work closely with low 
wage and immigrant workers, community-based organizations and 
their advocates, in addition to State labor departments to 
promote good models for enforcement of labor standards.
    In our basic work, two trends have emerged recently which 
touch upon my recommendations today. First, in light of the 
moribund Federal Department of Labor Enforcement, State 
departments of labor and State attorneys general have stepped 
into the void. They have launched innovative and effective 
enforcement programs, including State departments from both 
Ohio and Illinois, and the models they have enacted I think are 
good models for us to tap into for Federal reforms.
    Second, following the virulent last 18 months of the Bush 
administration's workplace immigration raids, immigrant workers 
and other low wage workers have virtually stopped coming 
forward to complain. There is so much fear out there that the 
complaints simply aren't coming in. Because we have a 
complaint-driven system in our society, that means enforcement 
cannot happen because workers are not coming forward to 
complain.
    My brief remarks this morning are in more detail in the 
written prepared testimony, but they will reflect these two 
trends.
    For 20 years, I have worked with communities of low income 
workers in dozens of job categories to ensure that they get the 
basics. More and more, immigrant workers are not coming forward 
to complain, and there is no one to complain to.
    The testimony we have heard this morning is just a handful 
of examples of a larger trend that affects not only the 
guestworkers and their families, but other workers in the same 
job categories, and other employers who have to compete with 
these same employers who are perpetuating these sub-par jobs.
    The problem is so deep-seated, it touches jobs you see 
everyday: the janitors who clean this building; the 
housekeepers, home care and child care workers who tend our 
homes and our loved ones; servers in the cafeteria in this 
building; housekeeping staff in hotels; construction workers 
who build and repair these buildings; and the landscapers I 
passed this morning on my way to the hearing. These jobs do not 
have to be bad jobs with low pay. They are growth service 
sector jobs that could be helping create a new middle class, 
with good pay and benefits. We can restore the promise of 
economic opportunity for these workers and their families by 
making sure these jobs pay.
    The Department of Labor. Three GAO reports in less than 1 
year make the point loud and clear the Wage and Hour Department 
of the U.S. Department of Labor is not effective. A decade of 
declining resources has not, surprisingly, resulted in a 
decrease in enforcement by one-third, while the number of 
covered businesses has increased to over 8 million. Wage and 
Hour Division has recently relied almost exclusively on worker 
complaints to conduct its enforcement. When this strategy 
exists in the context of immigration raids in the workplace, it 
comes as no surprise to us that the complaints didn't come and 
enforcement didn't happen.
    Some other highlights from these recent GAO reports I think 
are worth noting. These are basic problems. The Wage and Hour 
Division did not consistently log in worker complaints, in some 
regions didn't even log in a complaint until there was a 
successful resolution of a complaint. There is no way to 
measure progress or hold the Department accountable if that 
information is not available. Delays for workers who did manage 
to come forward and complain were common and sometimes lasted 
as long as 6 months. Some offices only had voice mail, and some 
didn't even have voice mail. These are all detailed in the GAO 
reports that have come out in the last year.
    Another problem is that the Wage and Hour Division did not 
seek any liquidated damages or extra penalties, so that if it 
did capture a complaint and get an employer to pay, the 
employer just paid what it would have paid the employee had it 
paid her correctly in the beginning.
    So now what about a DOL renaissance? If only employers were 
as afraid of the DOL as we are of the IRS, then we would get 
some traction. Much of the reform proposals listed in my 
prepared testimony have been enacted by the Department of Labor 
in the past. They are very simple and they can send an 
important and strong message. Secretary Solis recently noted 
there is a new sheriff in town. Well, here is how we think she 
can enact that message to employers:
    First, don't just rely on worker complaints. Department of 
Labor has done this before; it has targeted problem industries 
with audits and investigations. Department of Labor had a salad 
bowl initiative that looked at agriculture; it looked at 
nursing homes, affirmatively auditing and investigating. This 
was very effective and it can do it again easily.
    It should use its joint employer powers to go up the food 
chain when there are multiple subcontractors, as there are in 
guestworker programs, and it has done it in the past in 
agriculture and garment cases, where it holds other employers 
and subcontractors accountable for the abuses.
    It can share information on violations with State and 
Federal partner agencies, including the Internal Revenue 
Service, who cares about independent contractor and off-the-
books payments. It also can share with State Departments of 
Labor. Maryland, Illinois, Ohio, and New York are among some of 
the States that are already doing this. Any sharing of this 
information has to include a firewall between the ICE, the 
Immigration Service and Department of Labor. We heard this 
morning that----
    Mr. Kucinich. The gentlelady's time has expired, but what I 
would like to do is if you would just wrap it up in a couple of 
sentences.
    Ms. Ruckelshaus. OK, sorry. OK, sure.
    I have a long list and I am not through it, but what I will 
just say is that guestworkers and other immigrant workers 
cannot police their work forces alone. The Department of Labor 
is the front-line agency charged with making work pay, and 
together we can work to make this happen. Thank you.
    [The prepared statement of Ms. Ruckelshaus follows:]

    [GRAPHIC] [TIFF OMITTED] T1324.330
    
    [GRAPHIC] [TIFF OMITTED] T1324.331
    
    [GRAPHIC] [TIFF OMITTED] T1324.332
    
    [GRAPHIC] [TIFF OMITTED] T1324.333
    
    [GRAPHIC] [TIFF OMITTED] T1324.334
    
    [GRAPHIC] [TIFF OMITTED] T1324.335
    
    [GRAPHIC] [TIFF OMITTED] T1324.336
    
    [GRAPHIC] [TIFF OMITTED] T1324.337
    
    [GRAPHIC] [TIFF OMITTED] T1324.338
    
    [GRAPHIC] [TIFF OMITTED] T1324.339
    
    [GRAPHIC] [TIFF OMITTED] T1324.340
    
    [GRAPHIC] [TIFF OMITTED] T1324.341
    
    Mr. Kucinich. I thank the gentlelady. Your entire testimony 
will be included in the record. Also, staff is going to take 
note of your suggestions, and we are preparing a memo to the 
Department of Labor, which will include not just the 
suggestions, but some suggestions from our staff about how we 
can be more effective in protection of the rights of 
guestworkers.
    Ms. Ruckelshaus. Thank you.
    Mr. Kucinich. The Chair recognizes Professor McLaughlin for 
5 minutes. Thank you for being here, and you may proceed.

               STATEMENT OF PATRICK A. MCLAUGHLIN

    Mr. McLaughlin. Chairman Kucinich, Ranking Member Jordan, 
and distinguished members of the committee, it is a privilege 
to be asked to testify in this forum today regarding the H-2B 
guestworker program and consideration of the Department of 
Labor's enforcement of policies related to guestworkers.
    My name is Patrick McLaughlin, and I am a research fellow 
at the Mercatus Center at George Mason University. I have been 
invited to share my opinion of what economic effects we should 
expect if the United States mandated that employers must pay 
certain employee benefits for H-2B workers.
    I have two main points to make on this topic. First, 
mandating benefits for H-2B workers, while well intended, will 
have unintended consequences. Second, if the goal is to help H-
2B workers avoid possible exploitation, then a free agent model 
that empowers H-2B workers to switch employers can accomplish 
this goal while avoiding those unintended consequences.
    Consider the possibility of mandating that employers pay 
some benefits for H-2B workers. Regardless of the specific 
nature of the mandated benefit, the effect is always that 
employers are forced to pay more for each worker they hire. 
Some or all of these costs may be shifted onto the employee in 
the form of lower wages. There are two possible scenarios that 
could result from mandating benefits for H-2B workers that I 
will discuss. To make these scenarios somewhat more concrete, 
suppose that the mandated benefit in question is inbound 
transport costs, that is, what would occur if employers were 
required to pay the cost for the employee to travel to the work 
site.
    First consider those employees being paid more than minimum 
wage or the required prevailing wage. The papers I examined on 
mandated benefits consistently present the same message: the 
beneficiaries of the mandated benefits mostly end up paying for 
the benefits in the form of lower wages. This scenario can only 
occur, of course, if wages can't be lowered. Minimum wage or 
prevailing wage requirements may prevent this.
    The second scenario is this: employers are legally 
prevented from offering lower wages to H-2B workers. If minimum 
wage or prevailing wage requirements mean that wages cannot be 
lowered, then the results are fairly straightforward from an 
economic perspective: firms will seek out workers with lower 
benefit costs. Wage rigidity such as minimum wage decrease the 
ability of the firm to pass along the cost of mandated benefits 
to employees and can lead to greater unemployment.
    As Larry Summers put it, ``Suppose that there is a binding 
minimum wage. In this case, wages cannot fall to offset 
employers' costs of providing a mandated benefit, so it is 
likely to create unemployment.'' In the second scenario, the 
effect would be that potential employees that are 
geographically distant would be less likely to be hired 
compared to potential employees that are physically closer or 
compared to employees who circumvent legally mandated benefits, 
such as illegal immigrants. This suggests two implications of 
mandating benefits.
    First, while those workers who receive the mandated 
benefits will be made better off, some employers may opt to 
hire fewer H-2B workers because they now cost more. As a group, 
it is not clear that H-2B workers are made better off. While 
those lucky enough to get jobs with benefits may be better off, 
there will be less jobs to go around. Second, employers may 
choose to replace them with native workers or illegal immigrant 
workers. So while one consequence of mandating benefits for H-
2B workers may be to make native workers relatively more 
competitive, another presumably unintended consequence would be 
to increase demand for illegal immigrant workers.
    Finally, if the goal is to extend more benefits for H-2B 
workers or to at least avoid exploitation, one other policy 
that should be explored is the free agent model, that is, 
allowing H-2B workers to transfer their H-2B visa from one 
employer to another. This would encourage employers to compete 
for their services.
    If demand for H-2B workers is greater than the available 
supply which is constrained by the H-2B visa cap, a free agent 
model would allow employers to bid for employees' services so 
that employees will end up in the job that is highest value to 
the economy and highest paying to the employee.
    I thank you again for inviting me here today.
    [The prepared statement of Mr. McLaughlin follows:]

    [GRAPHIC] [TIFF OMITTED] T1324.342
    
    [GRAPHIC] [TIFF OMITTED] T1324.343
    
    [GRAPHIC] [TIFF OMITTED] T1324.344
    
    [GRAPHIC] [TIFF OMITTED] T1324.345
    
    [GRAPHIC] [TIFF OMITTED] T1324.346
    
    [GRAPHIC] [TIFF OMITTED] T1324.347
    
    [GRAPHIC] [TIFF OMITTED] T1324.348
    
    Mr. Kucinich. We thank you very much for being here.
    We are going to move to questions of our second panel. I 
would like to start with Mr. Soni. Have you seen any 
improvement in the amount of staff and resources available to 
the Department of Labor's New Orleans office and Gulf Coast 
region since our hearings in 2007?
    Mr. Soni. We have not seen any significant increase or 
improvement in staff capacity, and we have certainly not seen 
any improvement in staff outreach or staff contact with the 
community since the last hearing, Mr. Chairman.
    Mr. Kucinich. Ms. Bauer, given your work on guestworker 
issues nationally, the testimony that you heard today, do you 
think that it reflects the problems in the guestworker program 
nationally or are these aberrations and just sensational 
stories that do not really reflect the conditions that are 
going on?
    Ms. Bauer. I think there is no doubt that these are 
problems that are the product of the structure of this program. 
The cases we have been involved in, many of them are national 
class actions, workers working not just in the south, but the 
northwest, all over the country, and they report the identical 
kinds of problems that flow from this program.
    Mr. Kucinich. In your testimony, you attached as an exhibit 
an article and study by the Economy Policy Institute which 
found that in seven occupations with the most H-2B workers, 
unemployment was higher and had risen faster than the national 
average, while wages were lower and risen more slowly than the 
national average. Now, the Institute attributes this to the H-
2B program, allowing employers to look overseas for workers who 
are willing to take lower wages.
    Do you agree with this conclusion and what are the steps 
that the Department of Labor needs to take in its certification 
process to ensure that the H-2B program does not lower wages 
for U.S. workers?
    Ms. Bauer. I do agree with that conclusion, and I think EPI 
did an excellent job in showing very concrete examples where 
workers were being paid and getting certified at dramatically 
less than the prevailing wage rate. One of the problems I think 
that we are looking at is that, in 2005, the Department of 
Labor changed the methodology for determining the prevailing 
wage rate and wages plummeted $2 to $3 per hour, sort of in a 
typical case, as a result of that change in methodology.
    The Department of Labor needs to look at the way--and I 
would suggest Congress needs to provide oversight for that 
process--at the way the prevailing wage is being calculated. We 
have seen many examples where people are earning significantly 
less than the minimum wage, and the jobs are getting certified 
just at the minimum wage when workers are being paid on a piece 
rate system.
    Mr. Kucinich. Thank you.
    Ms. Ruckelshaus, do you believe the lack of enforcement of 
rights of guestworkers had contributed to low wages?
    Ms. Ruckelshaus. I think the lack of enforcement generally 
has contributed to low wages. I think guestworkers are a 
microcosm of the problem that are endemic in all of these low 
wage service sector jobs where there just isn't any 
enforcement. So I guess the answer is yes, but it is not 
specific to guestworker problems.
    Mr. Kucinich. Well, in your written testimony you state 
that the abuse of guestworkers is bad for the economy at this 
moment in time. Certainly, everyone here is concerned with 
improving the economy. Can you explain this statement and give 
us a better understanding of how improving the treatment of 
guestworkers helps all workers?
    Ms. Ruckelshaus. Yes. What I meant by that statement was 
that if we don't have a wage floor, it means that employers 
have to compete against other employers with sub-par jobs. That 
hurts other workers in the same sector, and even in related 
sectors. It is bad for the workers and their families because 
they can't make ends meet.
    The minimum wage in this country is ridiculously low and 
the annual income that it generates simply isn't enough to live 
on. Third, it hurts our State and Federal coffers because there 
are payroll taxes not being paid, there are all sorts of other 
insurance not being paid. So it is a vicious cycle. It is not 
bringing anybody out of poverty.
    Mr. Kucinich. Thank you.
    Just a final question to Professor McLaughlin. I noted that 
you sat here and heard the testimony of the previous panel. Do 
you have any opinion on the Department of Labor's failure to 
curb the abuses of guestworkers that we have heard testimony 
about today? How does that sound to you as you were just 
sitting there in the audience? Does it make you feel one way or 
another about the plight of these workers?
    Mr. McLaughlin. I am sure that everyone in the audience, 
including myself, felt some sympathy for the plights of the 
workers. However, I am not certain whether the fundamental 
problem here is the Department of Labor's enforcement or lack 
of enforcement. What I think is the fundamental problem is the 
inability of the H-2B worker to be able to quit one work when 
he is in a situation he doesn't like and go work for another 
employer.
    Mr. Kucinich. Well, we appreciate your being here to 
testify. We really do.
    I am going to now turn to Mr. Jordan, the ranking member, 
for 5 minutes of questioning. You may proceed, Mr. Jordan.
    Mr. Jordan. Mr. Soni, one of the things I want to get clear 
from your testimony that I thought was interesting, you talked 
about, after Katrina, many displaced residents at the hotel, 
and yet the Department of Labor approved the owner of the hotel 
bringing in guestworkers when there were lots of unemployed 
people--I think that was maybe your exact words--right there in 
the facility that the individual owned. To your knowledge, was 
the Department of Labor even asked the question why don't we 
start employing the folks who are right here, displaced people? 
Was that even brought up?
    Mr. Soni. Well, to my knowledge, the Department of Labor 
did not really play a role for 3 years post-Katrina, and from 
enforcing the most basic wage and hour violation laws to asking 
the bigger questions that you are pointing to, why is one group 
of workers being locked out of post-Katrina New Orleans jobs 
while another group of workers is brought in and exploited. 
That was certainly not a question that was asked by the 
Department of Labor. It was certainly a question asked by 
hundreds of workers living unemployed in the hotels, as well as 
a question asked by hundreds of guestworkers brought to those 
hotels.
    Mr. Jordan. I think you have all testified, and the first 
panel certainly, about the failure--the chairman's words in his 
opening statement were utter failure--of the Department of 
Labor. I think Ms. Ruckelshaus talked about over 10 years. So 
we are talking about the Clinton administration, the Bush 
administration, and the current administration, at least for 3 
months. Yet, some of you say you think it is a good move that 
DHS is moving that portion of the program to the Department of 
Labor. Do you really think, at the Department of Labor, things 
are going to get better?
    Ms. Ruckelshaus. I will start. I think what we need to do 
is smart enforcement. So assuming there is always going to be 
not enough resources to do enforcement, the strategies have to 
be smart and make an impact. So collaboration, partnering, 
leveraging what we have, that is what I think has to change; 
and it seems there is a glimmer of hope in this administration 
that can start to happen.
    Mr. Jordan. Let me go quickly to one other thing. I want to 
bring up the professor's point, the free agent concept. To me, 
that does seem like, when you talk about worker empowerment, 
putting aside the problems that have been outlined here and 
experienced with the recruiters and the lack of enforcement 
from the Department of Labor, your thoughts on that concept, 
the free agent concept that the professor has brought up.
    Mr. Soni. Well, I would say that there are four levels at 
which intervention has to be made in order to empower 
guestworkers and make the Department of Labor relevant to the 
lives of guestworkers. First of all, there has to be an 
intervention at the level of debt. Whether or not workers are a 
free agent, if they come to the United States indentured to a 
large debt, it will not help them move from one shipyard to 
another.
    Second, there has to be intervention at the level of 
workers being tied to one employer, which is what the gentleman 
is addressing. That, however, can easily break down in the 
present state that shipyards, the service industry, and other 
industries across the south exist. There would have to be a 
real compliance with that rule.
    The third thing I would say is that workers at the moment 
are very clear that their legal status is tied to their 
employment. During periods of unemployment, for example, what 
is a worker to do? He can't come forward and report labor abuse 
if he doesn't have the next employer to go to.
    Mr. Jordan. Obviously, if there was a change, there would 
have to be an education component involved.
    Ms. Bauer, you haven't spoken yet. Go ahead.
    Ms. Bauer. Well, we agree that having a visa be portable to 
another employer would be an incredible improvement in this 
program, and if that is coupled with a serious regulation of 
recruitment and travel costs, that would make an enormous 
difference.
    Mr. Jordan. Do you really think we can get at the 
recruitment issue? Because it strikes me as we can say the 
individual seeking to come here can't--someone can't collect a 
fee from them, but there is going to be that incentive, it 
seems like to me, for folks in their native country wanting to 
unfortunately exploit them and take some money.
    Ms. Bauer. Well, that happens. There is no doubt that 
happens. The question is is the employer who chooses that 
recruiter responsible. If that happened in the United States, 
there is no doubt that if an employer's workers are demanding 
kickbacks from other employees, that the employer is going to 
be on the hook for that.
    Mr. Jordan. Let me ask one other quick question. I have 30 
seconds. And any of you can grab this. This is just a general I 
don't know kind of thing. What kind of background check is done 
on the H-2B applicants? Because in the earlier panel we heard 
that one--and I forget, maybe it was Mr. Lopez--worked on a 
military base. So what kind of background checks are done for 
these individuals, how extensive?
    Ms. Bauer. It is very minimal. People have to submit--the 
thing that the State Department is largely concerned about is 
to make sure that people do not overstay visas. That is the 
level of inquiry. So the question is have you overstayed visas 
in the past. That is the inquiry that is going on.
    Mr. Jordan. OK. Thank you.
    Mr. Kucinich. If I may, to my colleague, it seems that the 
only qualification is someone's willingness to work for cheap 
wages, or maybe to put themselves in a position where they are 
not even going to get paid, which is abhorrent.
    The Chair recognizes Mr. Foster.
    Mr. Foster. When I listen to the descriptions of the 
problems with the wage nonpayment and cheating, as well as tax 
fraud and minimum wage violations, this sort of stuff, I wonder 
if there is any merit or if it has ever been considered to have 
a third party hold the wages in escrow or perhaps post a bond 
so you know the wages will be actually there, or maybe have a 
third party perform the payments so that actually there is some 
record of this.
    Are there any initiatives along those lines that would at 
least guarantee--it seems to me that would have two merits, one 
of which would be it would prevent a deal from getting struck 
which relied on the employer's intention to not really pay 
these people properly, that would just discourage it from the 
start. I wonder if there are any sort of initiatives along 
those lines that have been contemplated. Anyone.
    Ms. Bauer. I do not believe such initiatives exist. We 
suggested in our report that employers should be required to 
post a substantial bond to guarantee that there would be money 
to pay workers. I know of no serious proposals at the national 
level that would make that happen.
    Mr. Foster. OK. In regards to this discussion of the free 
agent model, is there a way that any of you see to prevent an 
abuse from having people basically have some determination that 
there is a shortage of workers in some area, in some region, 
and then if you really have free agents, they will immediately 
jump to some other region, some other industry, and it won't be 
two equivalent shipyards interchanging. Isn't that a real 
complication with this? That when you said, OK, I want to go to 
this other employer, you would have to say, OK, now, is this 
employer in a similarly situated labor market.
    Ms. Ruckelshaus. I think if you do have visa portability, 
you have to change some of the fundamental premises of the 
program, because then it is not necessarily no longer this 
employer who needs guestworkers who can't find other workers 
here in this country.
    Mr. Soni. There really needs to be an industry assessment 
and a geographic assessment of industry sectors and geographies 
that need temporary workers. There would probably be a way to 
construct the ability of workers to move back and forth within 
those sectors. The thing that hundreds of members of our 
organization will testify to, though, is that without the 
ability to change from one employer to the other, they have no 
ability to negotiate and they have no leverage with their 
employers.
    Ms. Bauer. If I might, former Secretary of Labor Ray 
Marshall has suggested the creation of a kind of independent 
agency to determine need in just this kind of circumstance. 
That would not be an employer-driven agency, but that would be 
a U.S. agency that would evaluate whether seasonal workers were 
really required and where.
    Mr. McLaughlin. If I may also comment on that briefly. It 
seems like it is fundamentally an engineering and information 
problem that you are addressing. The incentives for both the 
employers and employees are obviously well addressed when the 
free agent model is adopted. Now, the complications of adopting 
that model I think have been, to some degree, addressed 
previously, how do you get the information about where free 
agent employees are to potential employers. But I don't think 
that changes the fundamental incentives.
    Mr. Foster. Well, I must say I found your attraction for 
this free market concept, that somehow we have agents with 
perfect information and perfect language skills and everything 
else that would be necessary for that to happen sort of 
interesting.
    I was wondering, in terms of the--I was disturbed by the 
failure to even log in complaints that was mentioned, I guess, 
by Ms. Ruckelshaus, and I was wondering if some sort of 
daylight or public scrutiny is relevant there. I don't know if 
these have to be private complaints, or would it be all right 
with the typical complainee if they actually just sat there and 
dumped it on the Internet so that this was visible to everyone 
that this was an unresolved complaint?
    Ms. Ruckelshaus. I think it is deeper than that because 
there is nothing even there to post up on the Internet right 
now, because the offices aren't collecting the most basic 
intake information. That is the first step, is just to get them 
to log in what the complaint is and what the claim is. Then 
there would be a question of how much--there are proposals to 
put employers scoff law employers up on the Web so that 
employees can see, oh, I am owed money or he has already paid 
money for me. So I think there are privacy concerns, but those 
can be dealt with. Government agencies get data. Your offices 
have constituency data coming in all the time from calls from 
constituents. We are talking about really basic simple stuff 
that I think shouldn't be a problem.
    Mr. Foster. Do you know if the Department of Labor 
maintains a publicly searchable data base of debarred employers 
or people who have abused or defrauded employees?
    Ms. Ruckelshaus. The prevailing wage section of it does, 
but the other parts do not because the data is not there.
    Mr. Foster. OK. Thank you.
    I yield back.
    Mr. Kucinich. I want to thank the witnesses on this panel. 
Your testimony is something that each member of this 
subcommittee will take careful note of. Our staff will pore 
over it to come up with recommendations to the Department of 
Labor. I want to thank each and every member of this panel for 
their presence here and for their thoughtful testimony. I would 
like you to know that this subcommittee will retain 
jurisdiction over this.
    I have talked to the ranking member, and we are going to 
look for ways that we might be able to make joint 
recommendations to the Department of Labor. I also want to say, 
as the chairman of this subcommittee, the people who were 
involved in the offenses, who have apparently not yet been 
called to legal accounting, this subcommittee will continue to 
look at the process that has caused them to escape 
accountability.
    I am Dennis Kucinich, chairman of the Domestic Policy 
Subcommittee of the Oversight and Government Reform Committee. 
I am joined by the ranking member of the committee, 
Representative Jordan of Ohio, and, of course, we are with Mr. 
Foster from Illinois, who has been here throughout this 
hearing. This has been a hearing of the subcommittee on the H-
2B Guestworker Program and Improving the Department of Labor's 
Enforcement of the Rights of Guestworkers. This is one of a 
series of hearings by this subcommittee on this subject.
    I want to thank each and every one of the members of the 
panel and the previous panel for their testimony. I thank you 
very much for your presence here today. This subcommittee 
stands adjourned.
    [Whereupon, at 12:04 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T1324.349

[GRAPHIC] [TIFF OMITTED] T1324.350



</pre></body></html>
